   March 25, 2005




Financial Management
Independent Examination of the
Rights to U.S. Army Corps of
Engineers Buildings and Other
Structures
(D-2005-046)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CEFMS                 Corps of Engineers Financial Management System
DoD FMR               Department of Defense Financial Management Regulation
DoD IG                Department of Defense Inspector General
FAS                   Financial Accounting Standards
GAAP                  Generally Accepted Accounting Principles
GAO                   Government Accountability Office
PP&E                  Property, Plant, and Equipment
SFFAS                 Statement of Federal Financial Accounting Standards
USACE                 U.S. Army Corps of Engineers
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 222024704



                                                                        March 25,2005
MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on the Independent Examination of the Rights to U.S. Army Corps of
         Engineers Buildings and Other Structures (Report No. D-2005-046)

       We are providing this report for information and use. We performed the
examination in response to a request fkom the U.S. Army Corps of Engineers. This is the
second in a series of reports related to management assertions by the U.S. Army Corps of
Engineers on Civil Works buildings and other structures. We considered management
comments on a draft of this report when preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Carmelo G. Ventimiglia at (317) 510-3855 @SN 699-3855) or Mr. George C.
DeBlois at (317) 510-3852 @SN 699-3852). See Appendix E for the report distribution.
The team members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:


                                        ( i i           4.fld
                                      f& aul J. anetto. CPA
                                      Assistant Inspector ~eneral
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2005-046                                                     March 25, 2005
   (Project No. D2004FI-0037.001)

                     Independent Examination of the Rights
                        to U.S. Army Corps of Engineers
                         Buildings and Other Structures

                                    Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers and
Department of Defense personnel responsible for the financial reporting and
accountability of buildings and other structures should read this report. The report
discusses the accuracy of assertions about the rights to buildings and other structures and
the related transactions reported in the FY 2003 U.S. Army Corps of Engineers,
Civil Works, Financial Statements.

Background. General Property, Plant, and Equipment was the largest category of assets
reported on the U.S. Army Corps of Engineers, Civil Works, Financial Statements for the
fiscal years ending September 30, 2004 and 2003. Buildings and other structures
comprised $18.3 billion of the $30.9 billion reported as General Property, Plant, and
Equipment in FY 2003 and $16.1 billion of the $28.4 billion reported as General
Property, Plant, and Equipment in FY 2004. Buildings and other structures include all
buildings, structures, and other facilities affixed to U.S. Army Corps of Engineers land in
the continental United States, Alaska, and Hawaii. This is the second in a series of
reports related to management assertions by U.S. Army Corps of Engineers on Civil
Works buildings and other structures. Assertions are representations by management that
are embodied in the financial statements. In Department of Defense Inspector General
Report No. D-2005-035, “Independent Examination of the Existence of U.S. Army Corps
of Engineers Buildings and Other Structures,” February 15, 2005, we determined that the
U.S. Army Corps of Engineers misreported the existence of 164 of the 1,211 sampled
buildings and other structures, valued at $594.9 million, as of June 30, 2003. We also
determined that the full book value of 157 of the 164 sampled assets was misstated;
therefore, we did not test them for other management assertions.

We performed this examination to establish beginning balances for the audit of the
Principal U.S. Army Corps of Engineers, Civil Works, Financial Statements for the
Fiscal Years Ending September 30, 2004 and 2003.

Results. The U.S. Army Corps of Engineers misreported the rights to 208 of
1,054 buildings and other structures, with a net book value of $55.5 million, as of
June 30, 2003, on its Civil Works Balance Sheet. The misreported buildings and other
structures should have been treated as assets under capital lease as required by the
accounting standards in the Statement of Federal Financial Accounting Standards No. 6
and the DoD Financial Management Regulation or should have been transferred to other
entities based on transfer documentation. As a result, the assertion that the U.S. Army
Corps of Engineers had rights to all buildings and other structures reported on its Civil
Works Balance Sheet was inaccurate. The inaccuracy resulted in a misstatement of the
FY 2004 Civil Works financial statements and could cause the FY 2005 beginning
balances for buildings and other structures accounts to be misstated, if not corrected. The
U.S. Army Corps of Engineers should take actions to correct errors identified in this
report and review all buildings and other structures currently under lease at the field sites
that we did not review to determine whether other leased assets require correction. The
U.S. Army Corps of Engineers should also develop policy guidance for classifying and
accounting for buildings and other structures under capital lease. (See the Finding
section of the report for the detailed recommendations.)

Management Comments. The Commander of the U.S. Army Corps of Engineers
concurred with the finding and the recommendations and stated that each district was
taking corrective actions as specified in Information Paper No. 10, “Buildings and Other
Structures,” July 2004. The information paper required U.S. Army Corps of Engineers
district personnel to review all leased buildings and other structures on U.S. Army Corps
of Engineers land. The districts were directed to remove from the Corps of Engineers
Financial Management System all buildings and other structures that were being leased
for 75 percent or more of their economic useful life. The Commander also stated that
each district’s internal review office will review the corrective actions taken by district
personnel. Furthermore, the U.S. Army Corps of Engineers was in the process of
rewriting and updating applicable guidance. (See the Finding section for a discussion of
management comments and the Management Comments section of the report for a
complete text of the comments.)

Management Actions. During this independent examination, U.S. Army Corps of
Engineers personnel corrected 25 of the 208 errors in buildings and other structures
accounts. The U.S. Army Corps of Engineers also began to implement the corrective
actions in Information Paper No. 10. (See the Finding section for a complete discussion
of the management actions.)




                                             ii
Table of Contents

Executive Summary                                      i

Background                                            1

Objective                                             2

Finding
     USACE Rights to Buildings and Other Structures   3

Appendixes
     A.   Scope and Methodology                       11
     B.   Prior Coverage                              13
     C.   Glossary                                    14
     D.   Rights and Obligations Discrepancies        15
     E.   Report Distribution                         21

Management Comments
     U.S. Army Corps of Engineers                     23
Background
           We performed an examination to establish beginning balances for the audit of the
           Principal U.S. Army Corps of Engineers (USACE), Civil Works, Financial
           Statements for the Fiscal Years Ending September 30, 2004 and 2003. USACE
           reports General Property, Plant, and Equipment (PP&E) as an asset line item on
           the Civil Works Balance Sheet. The net book value represents the difference
           between the historical acquisition (book) cost and the associated accumulated
           depreciation of the assets. For FY 2003, the net book value of PP&E was
           $30.9 billion. Buildings and other structures1 comprised $18.3 billion of the total
           PP&E. For FY 2004, the net book value of PP&E was $28.4 billion. Buildings
           and other structures comprised $16.1 billion of the total PP&E. As of
           September 30, 2003, USACE had about 40,000 structures located at about
           1,273 field sites in the continental United States, Alaska, and Hawaii.

           Universe. USACE provided the universe of structures contained in the Corps of
           Engineers Financial Management System (CEFMS) as of June 30, 2003, that
           supported the amounts reported on the Balance Sheet. From this universe, those
           structures identifiable as bank stabilization assets were removed based on the
           recommendations in Department of Defense Inspector General (DoD IG) Report
           No. D-2004-017, “Reliability of Construction-In-Progress in the U.S. Army Corps
           of Engineers, Civil Works, Financial Statements,” November 7, 2003. Structures
           with a zero dollar book value were also removed (because they no longer had an
           impact on the financial statements) and were tested as part of the completeness
           assertion. The remaining universe of structures was statistically sampled to test
           USACE assertions about existence or occurrence, rights and obligations,
           valuation or allocation, and presentation and disclosure. To test the completeness
           assertion, we selected structures that were observed at the visited field sites and
           determined whether they were accurately reported in CEFMS. We also tested a
           judgmental sample of zero dollar book value transactions to ensure they were
           reported properly. This report is related to the USACE management assertion
           about rights to Civil Works structures.
           Leases. A lease is an agreement between entities conveying the right to use
           PP&E assets for a stated period of time (lease term). In a lease, the right to use
           the tangible asset is transferred from the owner, who is the called the lessor, to
           another entity called the lessee. Capital leases substantially transfer all the
           benefits and risks of ownership of the structure to the lessee.

           Quit Claim Deeds and Letters of Transfer. A quitclaim deed transfers the
           owner’s interest to a buyer, but does not guarantee that there are no other claims
           against the property. Similarly, a letter of transfer grants the transferee ownership
           interest, but does not guarantee that there are no other claims against the property
           from third parties.




1
    In this report, the term “structures” includes buildings and other structures unless otherwise specified.


                                                         1
Objective
    The objective of this attestation engagement was to verify the buildings and other
    structures portion of the General PP&E line item and related note disclosure to
    the FY 2003 Balance Sheet. We performed procedures in compliance with
    generally accepted government accounting standards, incorporating attestation
    engagement standards. See Appendix A for a discussion of the scope and
    methodology, Appendix B for prior coverage related to the objective, and
    Appendix C for a glossary of terms used throughout the report.




                                         2
            USACE Rights to Buildings and Other
            Structures
            USACE misreported the rights to 208 of 1,054 sampled structures, with a
            net book value of $55.5 million as of June 30, 2003 on its Civil Works
            Balance Sheet. The misreported structures should have been treated as
            assets under capital lease as required by the accounting standards in the
            Statement of Federal Financial Accounting Standards (SFFAS) No. 6 and
            the DoD Financial Management Regulation (DoD FMR) or should have
            been transferred to other entities based on transfer documentation.
            USACE had not developed policies and procedures to require district
            personnel to:
                   •   identify whether structures being leased to other entities should
                       have been classified as capital leases,

                   •   retire structures from CEFMS upon transfer to other
                       government entities, and

                   •   retire structures from CEFMS upon transfer to local
                       governments and private entities through the use of quitclaim
                       deeds.

            As a result, the assertion that USACE had rights to all structures reported
            on its Civil Works Balance Sheet was inaccurate. The inaccuracy resulted
            in a misstatement of the FY 2004 Civil Works financial statements and
            could cause the FY 2005 beginning balances for buildings and other
            structures accounts to be misstated, if not corrected.


Criteria
     Generally Accepted Accounting Principles (GAAP). GAAP describes
     assertions as representations by management that are embodied in financial
     statement components. The assertions can be either explicit or implicit and can
     be classified according to the following broad categories: existence or
     occurrence, completeness, rights and obligations, valuation or allocation, and
     presentation and disclosure. Assertions about rights address whether the assets
     are the rights of the entity on a given date.

     Statement of Federal Financial Accounting Standards. SFFAS No. 6,
     “Accounting for Property, Plant, and Equipment,” June 1996, contains
     accounting standards for federally owned General PP&E. According to SFFAS
     No. 6, a lease should be classified as a capital lease with the associated assets
     being recorded on the accounting records of the lessee if, at its inception, the
     lease meets one or more of the following four criteria.




                                         3
            •   The lease transfers ownership of the property to the lessee by the end
                of the lease term.

            •   The lease contains an option to purchase the leased equipment at a
                bargain price.

            •   The lease term is equal to or greater than 75 percent of the estimated
                economic life of the leased property.

            •   The present value of rental and other minimum lease payments,
                excluding that portion of the payments representing executory costs, is
                equal to or exceeds 90 percent of the leased property.

     The last two criteria are not applicable when the beginning of the lease term falls
     within the last 25 percent of the total economic life of the leased property. When
     this happens, the lease should be classified as an operating lease with the asset
     recorded on the accounting records of the lessor.

     Financial Accounting Standards (FAS). FAS No. 13, “Accounting for
     Leases,” November 1976, provides guidance on classifying and accounting for
     leases. FAS No. 13 states that for leases involving both land and structures that
     qualify as capital leases, the lessor accounts for the lease as a single unit lease.
     However, if the fair value of the land is 25 percent or more of the total fair value
     of the leased property at the inception of the lease, the land and the building are
     considered separately when classifying them as an operating or capital lease.
     The land is an operating lease, but the structure is a capital lease.

     Department of Defense Financial Management Regulation. DoD FMR,
     volume 4, “Accounting Policy and Procedures,” chapter 6, “Property, Plant, and
     Equipment,” August 2000, contains the DoD accounting standards for PP&E.
     The DoD Component that procures a General PP&E asset, or the DoD
     Component in possession of a General PP&E asset, usually, but not always, will
     be the DoD Component that must account for and report the asset. The DoD
     Component that reports the General PP&E asset must be able to obtain the benefit
     of and control access to the benefit inherent in the asset. The transaction or event
     giving a DoD Component the right to, and control over, the benefit of a General
     PP&E asset must have already occurred.


FY 2003 Financial Statements Assertions
     USACE management is responsible for the fair presentation of its Civil Works
     financial statements and the Required Supplemental Stewardship Information.
     They are also responsible for establishing and maintaining a system of internal
     control. The USACE “Management Representation Letter for the Civil Works
     FY 2003 Financial Statements,” December 3, 2003, asserted that:

            •   representations were presented fairly in compliance with GAAP;




                                          4
            •    material transactions were properly recorded in the accounting records
                 underlying the financial statements or disclosed in the notes to the
                 financial statements; and

            •    related accounts receivable or payable (including sales, purchases,
                 transfers, and leasing arrangements) were properly recorded or
                 disclosed in the financial statements.


Sampling Methodology
    We performed a statistical sample of 1,211 property identification codes at
    43 project sites to determine the accuracy of the financial data reported on the
    structures portion of the General PP&E line item on the FY 2003 USACE, Civil
    Works, Financial Statements. Distinct property identification codes represented
    each structure. We had previously determined that USACE misreported the
    existence of 164 of the 1,211 sampled structures, as of June 30, 2003. We did not
    test 157 of the 164 existence failures for the rights assertion because the full book
    value of these sampled items was misstated. Based on physical observation,
    discussions with USACE personnel, and available documentation, we conducted
    tests on the remaining 1,054 structures to determine whether, as of June 30, 2003,
    USACE or another entity owned or had rights to the structures.


USACE Rights to Structures
    Of the 1,054 structures sampled, 208 structures with a book cost of $73.9 million
    and a net book value of $55.5 million as of June 30, 2003, failed the rights
    assertion. A structure failed the rights assertion if USACE either entered the
    structure into a capital lease or transferred the rights to the structure to another
    entity. The following table shows the number and book value of property
    identification codes that failed rights testing. The table also identifies the reason
    for the failures.

                        Rights Test Failures as of June 30, 2003
                                                                      Book Value
                Reason for Failure               Number of Errors      (millions)

      Capital Leases With State or Local
      Government Entities                               188              $47.6

      Capital Leases With Private Entities                7                    .3

      Transfers to Other Government
      Entities                                           13              7.6

       Total                                            208              $55.5




                                             5
Appendix D contains a complete listing of property identification codes that
failed the rights testing. We calculated the dollar amount of misstatements in
book cost and book value as of June 30, 2003. These amounts will be used in the
subsequent report on the valuation of structures to project the potential
misstatement on the financial statements as of June 30, 2003, and the impact on
the FY 2004 ending balances.

Capital Leases
USACE incorrectly reported 195 property identification codes as structures that
qualified as capital leases in accordance with SFFAS No. 6. These structures had
a net book value of $47.9 million as of June 30, 2003. At 10 of 18 districts
visited, USACE entered into leases with government and private entities for
periods from 25 to 50 years without reviewing the structures included in the lease
to determine whether they qualified for treatment as a capital lease. In addition,
USACE personnel had inaccurately assigned useful lives of up to 100 years to the
195 structures, which was in violation of DoD FMR, volume 4, chapter 6. The
DoD FMR required that buildings be assigned useful lives of 40 years and other
structures be assigned useful lives of 20 years.

According to SFFAS No. 6, the leases affecting the 195 structures should have
been classified as capital leases. The lease periods did not start within the last
25 percent of the total estimate economic life of the structures, and the structures
were leased for 75 percent or more of their remaining economic life. Therefore,
the structures attached to the land qualify as a capital lease. However, the land
would qualify as an operating lease because land has an infinite useful life.
Structures under capital lease substantially transfer the benefits, risks, and
obligations of ownership when the lease is signed. USACE, the lessor,
erroneously continued to record the book value of the structures in its accounting
records, causing a misstatement in the General PP&E balance. Instead, the
structures should have been recorded in the lessee’s accounting records.

Capital Leases With State and Local Government Entities. Government
entities were the lessee for 188 of the 195 sample structures. The leases, valued
at $47.6 million, required the lessees to invest their own capital to operate and
maintain the structures. USACE constructed the structures with the intent that
USACE would turn over the maintenance and administration duties to the state or
local government. The following are examples of capital leases to government
entities.

       •   A recreational area at Ray Roberts Lake, Fort Worth, Texas, was
           leased to the cities of Dallas and Denton, Texas, in April 1990 for a
           period of 50 years. The recreational area was subsequently sub-leased
           by the cities to the Texas Parks and Wildlife Department. The lease
           states that the original inventory of structures and all additions become
           part of the lease. Twenty-nine sample structures at the recreational
           area were subsequently built and placed in service between
           January 1991 and November 1997. To comply with the DoD FMR,
           the structures should have been assigned useful lives of 20 or 40 years.
           Because the lease exceeded 75 percent of the structures’ economic
           useful lives, the structures qualify as capital leases, and the rights
           should have passed to the cities. USACE should not have reported the

                                      6
           structures as part of the General PP&E line on the USACE Balance
           Sheet.

       •   Seventy-six structures at Richard B. Russell Lake, Savannah, Georgia,
           were constructed under a cost share agreement with the states of
           Georgia and South Carolina. In 1982, USACE signed a 50-year lease
           with Georgia and South Carolina for the facilities and began
           constructing the structures. The structures were subsequently placed
           in service between January 1985 and February 1996. The useful lives
           of these structures are 20 and 40 years, according to the DoD FMR.
           Therefore, the structures qualified as capital leases, and the lessee had
           the rights to the structures.

USACE must identify and properly classify structures under capital lease with
government entities. For assets under capital leases, USACE is required to record
a receivable for the future lease payments on its Balance Sheet and remove the
asset from the General PP&E account. However, many of the leases to
government entities did not require lease payments. To avoid the complicated
process of classifying and accounting for the leased structures, USACE should
consider developing alternative procedures to account for these structures.
Because the government entity assumes operation and maintenance
responsibilities during the lease period, one viable alternate would be for USACE
to either transfer or donate the associated structures to the government entity for
the period of the lease. To be in accordance with FAS No. 13, USACE should
treat the affected land as an operating lease.

Capital Leases With Private Entities. Private entities were the lessees for 7 of
the 195 sample structures. The leases, valued at $0.3 million, each required a
rental payment for the duration of the lease. USACE should have recorded a
receivable for the future lease payments and removed the structures from the
General PP&E accounts. Any difference between the receivable and the
structure’s carrying amount should be recorded as unearned revenue and
amortized over the life of the lease. The lessees should have recorded the
structures on their Balance Sheet. For example, two marinas at Harry S. Truman
Lake, Kansas City, Missouri, were leased to private entities. A comfort station
was located at one of the leased marinas, which was leased on October 20, 2002,
for 25 years. A well house was located at the other leased marina, which was
leased on March 1, 2001, for 25 years. The comfort station and well house both
had a placed-in-service date of January 1986 and should have had useful lives of
40 years. Consequently, the structures were leased for more than 75 percent of
their remaining useful lives. USACE should have treated the leases affecting
these structures as capital leases and recorded the required quarterly lease
payments from the lessees as receivables.
Transfers to Other Government Entities
Three USACE districts incorrectly reported 13 structures in CEFMS that were
transferred to other government entities using quitclaim deeds or letters of
transfer. The quitclaim deeds and letters of transfer both transferred USACE
interest in the property to the other government entities. The 13 structures had a
net book value of $7.6 million as of June 30, 2003. At the time of the transfers,
USACE should have removed the structures from its asset accounts along with

                                     7
    any associated accumulated depreciation because it no longer had rights to these
    structures. The following are structures that had been transferred.

           •   Seven structures at Oahe Lake, Fort Pierre, South Dakota, and
               four structures at Sharp Lake, Fort Thompson, South Dakota, were
               transferred to the state of South Dakota using quitclaim deeds and
               letters of transfer. The quitclaim deed transferred USACE interests in
               the particular parcel of land to South Dakota when it was signed on
               January 26, 2002. By accepting the quitclaim deed, South Dakota
               assumed all the rights, title, and interests associated with the land.
               Accordingly, all structures on the land were transferred through use of
               the quitclaim deed.

           •   USACE entered into a contract with Titus County, Texas, at Cooper
               Dam, Sulphur Springs, Texas, on September 11, 1995. The contract
               made it necessary for a county road, property identification code
               CO-32059, along with other facilities to be relocated because of the
               White Oak Creek Mitigation Area. Upon completion of the relocation,
               all facilities affected, including the roads, became the responsibility of
               Titus County. In 1997, an easement transferred the roads within
               Cooper Lake to the County of Titus. Although the rights to the road
               no longer resided with USACE, the structure was not removed from
               CEFMS.

           •   Property identification code MORIVR-37015 represented levees that
               were located along the Missouri River and constructed for the local
               drainage districts during the 1950s and 1960s. Once the local drainage
               district (or county equivalent) certified that the necessary land was
               acquired, USACE designed and built the levees. Once constructed, the
               local drainage districts were required to operate and maintain them.
               Therefore, USACE did not acquire the land and did not own the
               levees.


USACE Corrective Actions
    During the course of our review, USACE initiated actions to address the problems
    that we identified. In July 2004, USACE issued Information Paper No. 10,
    “Buildings and Other Structures.” USACE required district personnel to review
    all leases and remove any structure from CEFMS that is under a lease period that
    exceeds 75 percent of the structure’s economic useful life. As of September 27,
    2004, the Savannah District, Savannah, Georgia, and the Omaha District, Omaha,
    Nebraska, retired 25 of the 208 sample items identified to be in error from
    CEFMS. Ten of the items, with a book value of $45,231.80, were corrected prior
    to September 30, 2003. These corrective actions represent positive steps toward
    achieving an accurate structure balance in CEFMS.




                                         8
Summary
    USACE assertions that it had rights to the structures reported in CEFMS during
    FY 2003 were inaccurate. The inaccuracies resulted in a misstatement of the
    FY 2004 Civil Works financial statements and could cause the FY 2005
    beginning balances for buildings and other structures accounts to be misstated, if
    not corrected. Recording structures in CEFMS that are under a capital lease or
    have been transferred to other entities does not fairly present USACE financial
    position in accordance with GAAP. The problems with the 208 sampled
    structures resulted in the net book value of the buildings and other structures
    accounts being overstated by about $55.5 million as of June 30, 2003. Similar
    rights problems may affect property identification codes at projects that were not
    sampled, resulting in a greater misstatement. Therefore, USACE must correct the
    208 identified errors and perform a review of its other leased and transferred
    structures for similar types of rights errors. USACE must continue to review and
    update policies and procedures to prevent future errors. Once updated policies
    are implemented, USACE must provide and document training of district
    personnel and ensure that all districts consistently implement the new policies and
    procedures to maintain accurate structure balances in CEFMS.


Recommendations and Management Comments
    We recommend that the Chief of Engineers, U.S. Army Corps of Engineers:

          1. Take the following immediate actions to resolve the 208 rights
    errors identified in Appendix D.

               a. For buildings and other structures under a capital lease, either
    establish an appropriate receivable and unearned revenue accounts in the
    accounting records then retire the asset from the General Property, Plant,
    and Equipment account or develop alternative procedures (donation or
    transfer) for accounting for these assets during their lease period.

             b. For buildings and other structures transferred to other entities,
    remove the assets from their asset accounts along with any associated
    accumulated depreciation.

    Management Comments. The Commander of USACE concurred and stated that
    the rights issues identified in the report will be corrected.

          2. Direct and document compliance with Information Paper No. 10
    to perform a one-time review of all property identification codes currently
    under lease. Specifically, ensure that structures that meet one of the four
    Statements of Federal Financial Accounting Standards No. 6 requirements
    are reclassified as capital leases and are properly reported in the Corps of
    Engineers Financial Management System.

    Management Comments. The Commander of USACE concurred and stated
    that each district is taking corrective actions outlined in Information Paper

                                         9
No. 10. Also, each internal review office is performing reviews to document that
corrective actions are being completed.

       3. Update Engineer Circular 405-1-2, “Project Inventory,
Management, Accountability and Documentation,” or other U.S. Army
Corps of Engineers guidance to include procedures for determining whether
buildings and other structures qualify as capital lease upon inception of a
lease and provide the proper accounting procedures to be followed by
district personnel. Once final policies are implemented, provide training to
district personnel and ensure that the policies are implemented consistently
by all U.S. Army Corps of Engineers districts.

Management Comments. The Commander of USACE concurred and stated
that USACE is in the process of rewriting Engineer Regulation 37-2-10,
“Financial Administration - Accounting and Reporting - Civil Works Activities,”
dated October 31, 2000, to include guidance set forth in Information Paper
No. 10. He also stated that USACE will update Engineer Circular 405-1-2, as
appropriate. The completion date for these actions is September 30, 2005.




                                  10
Appendix A. Scope and Methodology
           We selected a statistical sample from a universe of 32,571 structures, valued at
           $16.7 billion, reported as buildings and other structures on the third quarter
           FY 2003 Balance Sheet. Each structure was identified using a distinct property
           identification code. We used the sample to evaluate management assertions for
           existence or occurrence, rights and obligations, valuation or allocation, and
           presentation and disclosure. In this report, we address rights issues identified in
           testing the sampled structures. Projections related to any misstatement of the
           buildings and other structures accounts will be addressed in a future report.

           We obtained from USACE the 39,852 individual property identification
           codes1that comprised the trial balance totals for general ledger account codes
           1730 (buildings) and 1740 (other structures) as of June 30, 2003. We determined
           that the property identification codes represented the amount reported in the trial
           balance as of June 30, 2003. We removed 357 identified revetment structures,
           valued at $1.3 billion, from our universe based on recommendations contained in
           DoD IG Report No. D-2004-017, “Reliability of Construction-in-Progress in U.S.
           Army Corps of Engineers, Civil Works, Financial Statements,” November 7,
           2003, that these items be expensed. We also removed 6,924 structures with zero
           reported book values from the universe because they did not have an impact on
           the financial statements. We reviewed a two-stage, probability-proportional-to-
           size sample of USACE properties, which at the second stage involved 1,211 of
           the 32,571 property identification codes. The probability-proportional-to-size
           sampling technique used the dollar value of the asset as a selection criterion, with
           higher probability for selecting the higher dollar value projects.

           In DoD IG Report No. D-2005-035, “Independent Examination of the Existence
           of U.S. Army Corps of Engineers Buildings and Other Structures,” February 15,
           2005, we determined that USACE misreported the existence of 164 of the
           1,211 sampled buildings and other structures valued at $594.9 million, as of
           June 30, 2003. We did not test 157 of the 164 existence failures because the full
           book value of these sampled items was misstated. As a result, we tested only
           1,054 structures for the rights assertion. The 1,054 sample items were located at
           43 field sites within 18 USACE districts. We performed this examination from
           October 2003 through October 2004, in accordance with generally accepted
           government accounting standards, incorporating attestation engagement
           standards.

           From October 2003 to April 2004, we visited 43 field sites located in 18 USACE
           districts. We developed procedures to test the USACE management assertion
           about rights to Civil Works structures. We compared what was recorded in
           CEFMS to physical observation and available documentation to determine
           whether, as of June 30, 2003, USACE or another entity owned or had rights to
           structures.



1
    USACE excluded assets that would later be removed to comply with the increased capitalization
    threshold.


                                                     11
Use of Computer-Processed Data. Although we relied on computer-processed
data from CEFMS, we did not evaluate the adequacy of the systems’ general and
application controls. Previous audits have identified general and application
control weaknesses and questioned the reliability of the CEFMS data. We were
able to reconcile the USACE trial balances as of June 30, 2003 and September 30,
2003 for the buildings and other structures accounts within CEFMS by property
identification code for the corresponding periods. We evaluated data reliability
related to the sample items we reviewed by comparing information recorded in
CEFMS with source documentation and physical observations in USACE district
and field offices.

Use of Technical Assistance. We obtained assistance from the Operations
Research Branch, Quantitative Methods Division in the DoD IG in determining a
statistical sampling plan. We will report the calculation of statistical projections
in a subsequent report.

Government Accountability Office (GAO) High-Risk Area. GAO has
identified several high-risk areas in DoD. This report provides coverage of the
Defense Financial Management and Federal Real Property high-risk areas.




                                     12
Appendix B. Prior Coverage
    During the last 5 years, GAO and the DoD IG have issued several reports
    discussing the reporting of General PP&E on the USACE, Civil Works, financial
    statements. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-03-42, “Financial Management: Survey of Capitalization
    Threshold and Other Policies for Property, Plant, and Equipment,” October 15,
    2002

    GAO Report No. GAO-02-589, “Information Security: Corps of Engineers
    Making Improvements, But Weaknesses Continue,” June 10, 2002

    GAO-01-89 Letter Report, “Financial Management: Significant Weaknesses in
    Corps of Engineers’ Computer Controls,” October 11, 2000


DoD IG
    DoD IG Report No. D-2005-035, “Independent Examination of the Existence of
    U.S. Army Corps of Engineers Buildings and Other Structures,”
    February 15, 2005

    DoD IG Report No. D-2004-063, “Controls Over U.S. Army Corps of Engineers
    Buildings and Other Structures,” March 26, 2004

    DoD IG Report No. D-2004-032, “Independent Auditor's Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2003 Principal Financial
    Statements,” December 3, 2003

    DoD IG Report No. D-2004-017, “Reliability of Construction-in-Progress in the
    U.S. Army Corps of Engineers, Civil Works, Financial Statements,”
    November 7, 2003

    DoD IG Report No. D-2003-043, “Independent Auditor's Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2002 Principal Financial
    Statements,” January 1, 2003




                                      13
Appendix C. Glossary
   Accumulated Depreciation. The amount of depreciation expense that has been
   added over a period of time and calculated from the placed-in-service date of the
   asset.

   Acquisition (Book) Cost. The original purchase, construction, or development
   cost, net of (less) any purchase discounts. The cost of an asset shall include all
   costs incurred to bring the asset to a form and location suitable for its intended
   use. It includes amounts paid to the prior owner or vendor, additional
   expenditures to place the asset in service (such as legal and recording fees,
   supervision and administration, engineer and design, interest during construction,
   labor, and transportation cost), or the fair market value of property acquired by
   transfer, trade-in, found on works, or donation.

   Book Value. The book (acquisition) cost less accumulated depreciation charged
   on the asset.

   Economic Life. The estimated remaining period during which the property is
   expected to be economically usable by one or more users, with normal repairs and
   maintenance, for the purpose for which it was intended at the inception of the
   lease, without limitation by the lease term.

   Lease. A contract by which one conveys real estate, equipment, or facilities for a
   specified term and for a specified rent.

   Lease Term. The fixed non-cancelable term of the lease plus all periods, if any,
   representing renewals or extensions of the lease that can reasonably be expected
   to be taken.

   Placed-in-Service Date. The date that an asset is physically complete and
   available for use. Assets are recognized when the title passes to the acquiring
   entity or when the asset is delivered to the entity or to an agent of the entity. It
   defines the start of the capitalization and depreciation expense process.

   Property Identification Code. A number that links the Real Estate Management
   Information System database with CEFMS. The property identification code is
   system generated by the Real Estate Management Information System when
   information about a new asset is entered.

   Property Phase. A stage in an asset’s life cycle. An asset can be transferred
   from construction in progress to placed in service (S), retirement (R), to disposal
   (D) over the course of the asset’s life.

   Quitclaim Deed. A deed that transfers the owner’s interest to a buyer, but does
   not guarantee that there are no other claims against the property.

   Useful Life. The estimated time period for an asset to provide its intended
   service. The concept recognizes the deterioration of items as they age.



                                         14
 Appendix D. Rights and Obligations
             Discrepancies
         Observations conducted at 43 field sites identified 208 structures that failed rights
         testing. The following three tables identify the property identification codes and
         the amount of misstatement for structures that were under capital leases or were
         transferred to another entity, as of June 30, 2003.

         Table D-1 identifies the 188 property identification codes that failed rights testing
         because they were under a capital lease with state or local government entities.

                  Table D-1. Capital Leases With Government Entities
                    Property          Lease      Useful
                  Identification      Term        Life        Misstated            Misstated
   District           Code           (Years)    (Years)       Book Cost           Book Value

Fort Worth      CO-38914                25          20         $     422,000.43    $     391,405.37
                CO-38939                25          20               235,305.34          218,637.86
                CO-38944                25          20                82,947.97           71,196.98
                CO-38952                25          20                71,194.49           66,151.54
                CO-38956                25          20                44,883.48           41,704.26
                CO-38996                25          20               151,478.90          139,613.07
                CO-39035                25          20             2,420,177.99        2,248,748.72
                CO-39058                25          20                82,961.08           77,084.71
                RR-26267                50          20                47,904.90           44,161.02
                RR-27271                50          20                43,863.27           40,435.26
                RR-27273                50          40               125,779.79          106,049.64
                RR-27280                50          40               112,791.27           95,098.51
                RR-27290                50          20               152,980.04          141,024.33
                RR-27294                50          20               116,555.98          107,446.94
                RR-29045                50          20                25,237.67           17,236.48
                RR-29046                50          20             1,981,267.94        1,826,428.02
                RR-29048                50          20               100,258.89           92,423.42
                RR-29051                50          20               100,258.89           92,423.42
                RR-29053                50          20               601,553.40          554,540.85
                RR-29054                50          20               100,258.89           92,423.42
                RR-29060                50          20               540,652.86          498,399.78
                RR-29070                50          20             1,357,633.51        1,231,847.65
                RR-29074                50          20             8,372,237.13        7,718,536.84
                RR-29080                50          20               112,791.27          103,976.43




                                               15
              Table D-1. Capital Leases With Government Entities (cont’d)
                                     Lease    Useful
                   Property          Term      Life     Misstated        Misstated
  District    Identification Code   (Years)   (Years)   Book Cost       Book Value
Fort Worth    RR-29081                50        20         150,388.16        138,635.22
              RR-29090                50        20         231,120.55        211,382.62
              RR-29093                50        40         231,120.57        211,382.62
              RR-29099                50        40         125,779.79        104,215.90
              RR-29113                50        40         125,779.79        104,215.90
              RR-37154                50        20         233,770.76        223,831.19
              RR-37155                50        20          27,858.56         25,483.04
              RR-40496                50        20          58,837.54         58,355.68
              RR-40498                50        20          34,610.32         34,326.91
              RR-40507                50        20          27,879.31         26,661.25
              RR-40512                50        20          86,005.26         85,300.92
              RR-40514                50        20          27,879.31         26,643.25
              RR-40518                50        20         143,943.54        142,764.72
Huntington    BSAYBC-23814            30        20         167,140.05        118,667.69
              BSAYBC-23815            30        20         395,719.48        280,956.76
              BSAYBC-23818            30        20          46,889.39         29,069.39
              BSAYBC-23908            30        20          25,248.13         13,253.52
              BSAYBC-3460             30        20         148,083.29        119,946.07
Kansas City   KNOPLS-28136            50        40          26,557.09          6,465.60
              KNOPLS-28153            50        40          59,015.75         18,677.67
              KNOPLS-29927            50        20          78,893.39         33,066.00
              KNOPLS-38924            50        40          41,788.13         41,161.30
              LNGVW-28411             50        40          57,148.95         39,236.39
              LNGVW-28421             50        40          69,764.61         45,804.56
              LNGVW-28423             50        20          35,137.78         10,991.14
              LNGVW-28455             50        40          42,675.03         13,348.91
              LNGVW-28461             50        20          35,595.67         11,134.44
              LNGVW-28465             50        20          57,148.95         22,451.22
              LNGVW-28466             50        20          57,148.95         25,882.14
              LNGVW-28468             50        40          64,516.57         46,875.72
              LNGVW-28470             50        40          57,148.95         25,882.14
              LNGVW-28472             50        20          82,207.21         37,230.81
              LNGVW-29930             50        20         237,970.30        197,113.12
              LNGVW-30783             50        20          35,508.42         11,107.11
              LNGVW-30785             50        40          35,508.42         11,107.11
              LNGVW-30787             50        20         467,493.72        387,229.38
              LNGVW-30823             50        20         545,409.20        451,767.40
              LNGVW-30889             50        20          44,639.16         36,975.00
              LNGVW-30890             50        20         133,917.47        110,925.13
              LNGVW-30899             50        20         892,783.17        739,500.72
              LNGVW-30901             50        20         178,556.63        147,900.25
              LNGVW-30902             50        20          89,278.32         73,949.96
              SMTHVL-28289            50        40         166,441.84        143,690.88
              SMTHVL-28299            50        40         133,153.48         96,745.18


                                              16
              Table D-1. Capital Leases With Government Entities (cont’d)
                                         Useful
                  Property        Lease    Life
                Identification    Term   (Years    Misstated           Misstated
  District          Code         (Years)    )      Book Cost          Book Value
Kansas City   SMTHVL-28320         50      40             49,932.55         43,107.25
              SMTHVL-28347         50      40           316,239.50         229,769.67
              SMTHVL-28349         50      40           166,441.84         143,690.88
              SMTHVL-28351         50      40           166,441.84         143,690.88
              SMTHVL-28353         50      40           166,441.84         143,690.88
              SMTHVL-30968         50      40           166,441.84         143,690.88
              SMTHVL-30972         50      40           349,860.77         254,197.80
              SMTHVL-30980         50      20             43,690.98         19,787.21
              SMTHVL-30983         50      20             43,690.98         19,787.21
              SMTHVL-30985         50      20             43,690.98         19,787.21
              SMTHVL-30987         50      20           388,275.54         335,202.28
              SMTHVL-30990         50      20           479,352.52         413,830.06
              SMTHVL-30991         50      20           143,805.76         124,148.95
              SMTHVL-31001         50      20           549,258.10         142,254.17
              SMTHVL-31002         50      20         2,087,180.76       1,801,884.80
              SMTHVL-31003         50      20           384,480.67         331,926.27
              SMTHVL-31004         50      20           549,258.10         474,180.27
              SMTHVL-31007         50      20           169,770.68         146,564.87
Little Rock   ARLD13-43035         25      20           110,000.00          98,449.80
              ARLD13-43041         25      20            41,600.00          37,231.90
Nashville     JPP-14477            50      20             15,660.18         13,762.30
Omaha         OAHE-22104           50      20            52,422.79          27,258.79
Portland      BONNE-11939          50      40             11,000.00         10,474.07
              LOSTC-7210           25      20             15,360.00          8,132.43
Savannah      RBR-15714            50      20           128,340.22         102,594.40
              RBR-15729            50      20           347,869.55         314,942.94
              RBR-15957            50      20             12,158.54         11,007.67
              RBR-15966            50      40           221,642.80         197,434.23
              RBR-15968            50      40             13,509.51          6,555.45
              RBR-15969            50      40             13,509.51          6,555.45
              RBR-15971            50      20           220,676.54          99,250.63
              RBR-15978            50      40          320,850.54          290,481.23
              RBR-15989            50      20          925,625.00          839,382.70
              RBR-15991            50      20          105,703.57           95,139.16
              RBR-15993            50      20          105,703.56           95,139.15
              RBR-15995            50      20            84,434.37          76,442.45
              RBR-16000            50      20          979,438.53          886,732.73
              RBR-16059            50      20              8,443.43          4,097.25
              RBR-16067            50      20        1,051,332.12          951,821.44
              RBR-16068            50      20        1,979,327.08        1,791,979.97
              RBR-16069            50      20          128,340.22          102,594.40
              RBR-16071            50      20          338,318.71          305,944.43
              RBR-16228            50      20           296,195.72         267,877.35
              RBR-16246            50      20           193,861.28         175,327.01
              RBR-16603            50      20          574,153.62          519,260.62


                                         17
          Table D-1. Capital Leases With Government Entities (cont’d)
                                       Useful
                Property       Lease     Life
             Identification    Term    (Years    Misstated         Misstated
 District        Code         (Years)     )     Book Cost         Book Value
Savannah   RBR-16706            50        20         290,454.19       262,684.79
           RBR-16719            50        20         574,153.62       519,260.62
           RBR-16889            50        20          45,047.41        41,022.82
           RBR-16892            50        20         169,763.71       153,533.05
           RBR-16893            50        40         285,131.44       259,657.70
           RBR-16894            50        40         285,131.44       259,657.70
           RBR-16895            50        40         285,131.44       259,657.70
           RBR-16898            50        20         184,066.91       166,468.93
           RBR-16904            50        20          64,305.21        40,390.25
           RBR-16954            50        40          13,509.51         6,075.96
           RBR-17025            50        20         391,775.41       354,319.16
           RBR-17072            50        20         194,823.83       176,197.42
           RBR-17080            50        20         135,770.44       122,790.05
           RBR-17103            50        40       1,144,369.16       889,835.19
           RBR-17110            50        40         151,981.83       121,493.45
           RBR-17118            50        20          13,509.51         6,555.45
           RBR-17121            50        20         566,113.97       510,587.09
           RBR-17127            50        20          96,225.16        74,285.65
           RBR-17130            50        20          84,195.01        74,704.13
           RBR-17192            50        40         202,642.45       183,651.08
           RBR-17250            50        20         316,679.50       286,402.66
           RBR-17251            50        40          13,509.51         6,075.96
           RBR-17283            50        20         304,369.15       275,513.79
           RBR-17300            50        40         373,544.34       337,831.14
           RBR-17345            50        20         116,745.71        95,794.64
           RBR-17346            50        20         345,350.02       314,206.58
           RBR-17347            50        20          35,462.42        32,264.27
           RBR-17349            50        20         948,332.92       862,813.16
           RBR-17351            50        20          99,632.54        90,647.88
           RBR-17353            50        40         330,813.83       300,981.35
           RBR-17356            50        40          13,509.51         6,075.96
           RBR-17405            50        20         406,855.40       367,957.21
           RBR-17409            50        40          50,660.62        30,911.65
           RBR-17410            50        20         102,705.95        93,444.15
           RBR-17414            50        20          83,198.24        50,765.13
           RBR-17415            50        20         237,071.41       215,692.68
           RBR-17418            50        20          38,184.60        23,299.07
           RBR-17420            50        20       1,326,835.26     1,207,182.41
           RBR-18147            50        20         314,433.55       284,371.62
           RBR-18287            50        20         267,248.44       256,606.80
           RBR-18392            50        20         574,153.62       519,260.62
           RBR-18498            50        40          13,509.51         6,075.96
           RBR-18547            50        20         130,436.58       117,965.96
           RBR-18896            50        40          13,509.51         6,075.96


                                     18
            Table D-1. Capital Leases With Government Entities (cont’d)
                                          Useful
                   Property       Lease    Life
                 Identification   Term    (Years   Misstated          Misstated
   District          Code        (Years)    )      Book Cost         Book Value
Savannah       RBR-18898          50        40           13,509.51         6,075.96
               RBR-18910          50        20         667,801.47        603,955.12
               RBR-18958          50        20           39,836.12        24,306.81
               RBR-18955          50        40           13,509.51         8,243.08
               RBR-18959          50        20           13,374.40        12,168.25
               RBR-19301          50        20             8,443.43        4,097.25
               RBR-20755          50        20           31,013.08        28,147.73
               RBR-20764          50        20         130,082.72        118,063.92
               RBR-20766          50        20             7,862.14        7,135.92
               RBR-20767          50        20           52,890.78        48,004.12
               RBR-22108          50        20            28,589.61       25,948.10
Wilmington     FAL-15891          50        40          100,000.00        78,634.60
               FAL-15917          50        40           92,000.00        46,919.59
               FAL-15979          50        20           95,000.00        74,703.04
               FAL-15983          50        20           95,000.00        74,703.04
               FAL-16654          50        20           40,000.00        26,237.87
               FAL-17727          50        40           50,000.00        25,035.31
               FAL-18752          50        40           75,500.00        48,341.18
               FAL-18822          50        20          120,000.00        76,833.66
               FAL-18827          50        40           50,000.00        32,014.01
               FAL-18887          50        40           80,000.00        51,222.54
               FAL-18892          50        20          147,733.50       122,455.36
               FAL-18936          50        20          870,156.00       735,281.12
               FAL-18948          50        40          120,000.00        88,807.24
               FAL-19042          50        40        1,099,640.82       824,726.79
               FAL-19045          50        40           35,000.00        26,600.68
               FAL-19049          50        40          899,779.00       656,835.58
               FAL-19331          50        20          404,708.95       309,310.32
               FAL-20341          50        20           45,000.00        34,649.84
               FAL-20344          50        40           75,000.00        62,249.76
               FAL-24163          50        20           40,172.39        32,492.32
Total Leased
to
Government
Entities             188                            $55,152,626.20    $47,610,612.85




                                       19
        Table D-2 identifies the seven property identification codes that failed the rights
        testing because they were under a capital lease to a private entity.

                      Table D-2. Capital Leases With Private Entities
                                     Lease
                      Property       Term      Useful
                    Identification  (Years      Life      Misstated                   Misstated
  District              Code           )      (Years)    Book Cost                   Book Value
Fort Worth      CN-29518                50            25           $ 32,760.65           $ 21,785.84
Kansas City     HST-29743               25            40             55,605.60             36,137.70
                HST-29751               25            40             61,795.81             40,160.58
Nashville       JPP-14540               25            20             11,000.00              8,891.15
                JPP-14541               25            20             47,000.00             42,842.59
                JPP-14543               25            20             34,000.00             30,994.14
Pittsburgh      YOUGH-12824             40            40             95,024.90             80,170.04
Total Leased
to Private
Entities                 7                                        $337,186.96           $260,982.04


        Table D-3 identifies the 13 property identification codes that failed the rights
        testing because they were transferred to another entity.

                           Table D-3. Transferred Structures
                         Property
                       Identification Method of     Misstated                Misstated
        District           Code        Transfer     Book Cost               Book Value
                                        Constructed
                                        for Another
      Kansas City     MORIVR-37015      Entity             $18,196,374.61        $7,368,715.51
                                        Letter of
      Fort Worth      CO-32059          Transfer              201,378.77           187,785.66
                                        Letter of
      Omaha           SHARP-20509       Transfer                 2,519.53             1,800.87
                                        Letter of
                      SHARP-49789       Transfer                 5,000.00            3,032.97
                      OAHE-21803        Quitclaim                9,629.46            2,497.84
                      OAHE-21809        Quitclaim                5,538.87            3,315.93
                      OAHE-21949        Quitclaim                8,859.10            5,303.66
                      OAHE-21952        Quitclaim                4,059.78            3,490.23
                      OAHE-22011        Quitclaim               20,029.28           13,169.18
                      OAHE-22073        Quitclaim                9,629.46            3,087.29
                      OAHE-22177        Quitclaim                9,629.46            3,087.29
                      SHARP-20525       Quitclaim                2,519.53            1,800.87
                      SHARP-20676       Quitclaim                5,358.86            4,645.67
      Total
      Transferred
      Structures             13                            $18,480,526.71        $7,601,732.97



                                             20
Appendix E. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Subcommittee on Energy and Water Development, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Committee on Energy and Natural Resources
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Energy and Water Development, Committee on Appropriations
House Committee on Armed Services
House Committee on Energy and Natural Resources
House Committee on Government Reform
House Committee on Resources
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform


                                          21
U.S. Army Corps of Engineers Comments




                     23
24
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Barbara A. Sauls
Carmelo G. Ventimiglia
George C. DeBlois
Michael Perkins
Dennis L. Conway
Cheri D. Givan
Sean J. Keaney
Ryan W. Pusey
Woodrow W. Mack
Jeffrey D. Marshall
Eric Thacker
William H. Zeh
Matthew F. Bengs
Yalonda N. Blizzard
Leon D. Bryant
Bradley D. Grubb
Melissa J. Humerickhouse
Trisha L. Kaseler
Calvin O. King
Steven Kohne
Scott C. Kontor
Chelsea D. Pickens
Wilfredo Romero-Torres
Vivien Seumsouk
Kenneth A. Weron
Nathan R. Witter
Brian L. Zimmerman
Ann Thompson
Frank Sonsini
H. David Barton
Kandasamy Selvavel
